CERTIFICATE OF WORD COUNT
Case No.
Case Name: Poppi Metaxas v. United States of America
Title: Petition for Writ of Certiorari
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that
the accompanying Petition for Writ of Certiorari, which was prepared
using Century Schoolbook 14-point typeface, contains 5,990 words,
excluding the parts of the document that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the word-count function of
the word-processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and
correct.
DATED this 9th day of January, 2021.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. Box 250
Rutland, Vermont 05702
Phone: (802) 444-4357
Fax: (802) 779-9590
Vt Bar # 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

